AUGUST 10, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     NASA’S PAYMENTS FOR ACADEMIC TRAINING
                 AND DEGREES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-023 (ASSIGNMENT NO. A-11-002-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

DCAA         Defense Contract Audit Agency
DCMA         Defense Contract Management Agency
FAR          Federal Acquisition Regulation
GAGAS        Generally Accepted Government Auditing Standards
NPD          NASA Policy Directive
NSSC         NASA Shared Services Center
OHCM         Office of Human Capital Management
SATERN       System for Administration, Training, and Educational Resources for NASA


                                                                  REPORT NO. IG-11-023
AUGUST 10, 2011




                                                                            OVERVIEW


      NASA’S PAYMENTS FOR ACADEMIC TRAINING
                  AND DEGREES

                                                                              The Issue

  NASA offers its employees a variety of training and educational opportunities to
  complement work experiences and achieve better organizational and individual
  performance. Given the size of NASA’s workforce – over 18,500 civil service
  employees – this training poses a significant organizational cost: NASA officials estimate
  that between fiscal years 2006 and 2010 the Agency spent approximately $250 million on
  employee training. A subset of this total expenditure was for academic training at
  colleges and universities. Specifically, between July 2006 and September 2010, NASA
  spent approximately $17 million to pay for more than 10,120 academic courses for 2,460
  NASA employees.

  Federal law prohibits NASA from funding academic degrees for civil service personnel
  except through planned, systemic, and coordinated employee development programs that
  contribute significantly to meeting an identified training need, resolving an identified
  staffing problem, or accomplishing the Agency’s strategic goals. In light of these
  restrictions, NASA established academic degree programs designed to encourage the
  acquisition of new knowledge in support of the Agency’s mission and strategic goals and
  to provide eligible employees with the opportunity to obtain an undergraduate or graduate
  degree that will help build competencies toward an identified training or staffing need
  related to the Agency’s mission. Outside of these programs, NASA employees may
  attend individual college courses that improve individual and organizational performance,
  relate to the employee’s current duties or anticipated duties, and assist in achieving the
  Agency’s mission and performance goals.

  The Workforce Management and Development Division in the Headquarters Office of
  Human Capital Management is responsible for general oversight of NASA’s training,
  leadership, and organizational development programs, including NASA’s academic
  training programs. While the Division allocates Agency-wide training funds, it has little
  oversight of Center-specific training budgets or programs. By design, Center Training
  Offices are responsible for program execution at their respective locations, handling
  everything from training budget requests to expenditures. Moreover, Center directorates
  can apportion program funds for directorate employees to attend academic courses.
  Although Center Training Offices have final approval authority of academic training
  Center-wide, they generally rely on the employee’s supervisor to ensure classes are


REPORT NO. IG-11-023
                                                                                                      OVERVIEW



     related to the employee’s duties and, in most cases, do not question the use of directorate
     funds.

     NASA also pays for academic training for contractor employees as negotiated in a
     company’s contract with NASA. Academic training costs are included in a contractor’s
     overhead account as part of employee fringe benefits. The Federal Acquisition
     Regulation (FAR) states that in order to be an allowable expense, the cost of training and
     education must be related to the field in which the employee is working or may
     reasonably be expected to work. Procedures governing the use of contract funds for
     contractor employee training are addressed by company policy.

     In this audit, we examined NASA’s controls over its academic training program. In
     particular, we reviewed whether funds spent on academic training appear to be
     reasonable, whether approved courses relate to employees’ duties and the Agency’s
     mission, and whether controls are in place to ensure effective management of academic
     training expenditures. Details of the audit scope and methodology are in Appendix A.

     Results

     Some NASA employees are circumventing the Agency’s established procedures to obtain
     payment for academic degrees outside of formal degree programs. The Agency’s
     decentralized management structure, coupled with a lack of strong internal controls
     surrounding NASA’s payment for employees’ undergraduate and graduate degrees, has
     increased the potential for abuse. Consequently, NASA’s management of its academic
     training program needs significant improvement.

     Employee training at NASA is decentralized with each Center autonomously designing
     and implementing the training program, including formal undergraduate and advanced
     degree programs, that best fits its needs. The decentralized nature of the training creates
     challenges for NASA in ensuring that the Agency is not improperly paying course
     expenses for employees who are not enrolled in the Agency’s academic degree training
     programs, tracking expenditures for academic training, and ensuring that training funds
     are used judiciously.

     We found that NASA has not established adequate internal controls to address these
     challenges. As a result, from July 2006 through September 2010, NASA paid $1.44
     million for 57 employees to pursue academic degrees outside of NASA’s established
     degree programs – all without service commitments to the Agency for the degree. 1
     Moreover, we found that NASA is not able to quantify the total amount it spends on

     1
         A service commitment is an agreement that an employee will continue working at NASA for a specified
         period of time after completion of a training course or program. If the employee fails to fulfill the
         requirements of the agreement, the Agency has a right to recover the training costs. Under NASA’s
         formal academic degree programs, employees generally commit to remaining at NASA for 1 year after
         receiving tuition reimbursement for an undergraduate degree and 3 years after receiving reimbursement
         for a masters or doctorate degree.



ii                                                                                      REPORT NO. IG-11-023
OVERVIEW



  academic training for its civil service employees. In addition, because NASA does not
  limit tuition rates or annual spending per employee, employees have no incentive to seek
  training from less expensive public institutions as opposed to more expensive private or
  for-profit schools. We also found that NASA policy does not address the issue of
  payment for college credits awarded based on employees’ life experience. Further, the
  Agency could not consistently provide evidence of course completion and the
  documentation that was provided was not consistently reliable. Finally, NASA provides
  no oversight of academic training provided to its contractor employees.

  NASA’s Academic Training Program Lacks Appropriate Internal Controls. NASA
  employees are circumventing the Agency’s formal programs to obtain payment for
  academic degrees. Specifically, during this audit we found that NASA spent
  $1.44 million on 57 employees at four NASA Centers and Headquarters who are
  pursuing degrees outside of NASA’s established degree programs and are therefore not
  subject to the stringent application requirements of the established programs, including
  degree plan approval. In addition, these employees lack a service commitment to the
  Agency in exchange for tuition reimbursement, as required in NASA’s formal degree
  programs. Eighteen of these employees each received over $30,000 in academic training
  and one employee received over $60,000 – all without a continued service commitment
  to NASA. Because it is unclear what benefit NASA received for its $1.44 million
  investment in these employees, we question the Agency’s expenditure of these funds.
  Moreover, because this $1.44 million represents tuition payments for only a sample of
  employees at the four Centers and Headquarters where we conducted detailed audit work,
  we believe an examination across all NASA Centers likely would result in substantially
  higher questioned costs.

  Because NASA’s academic training program is so decentralized, NASA is unable to
  identify the total amount it spends on academic training for its civil service employees.
  In addition, the Agency has not structured its academic training program to encourage
  cost savings. Specifically, NASA does not cap tuition rates or establish annual spending
  limits per employee. Accordingly, employees have little incentive to attend less
  expensive schools. We found that 11 of the top 20 universities NASA employees
  attended were private or for-profit institutions that are on average 3.6 times and 1.6 times,
  respectively, more expensive than public universities. In addition, the Agency has not
  consistently leveraged its buying power to obtain discounts on tuition at frequently
  attended institutions.

  Furthermore, we identified internal control weaknesses that allowed NASA to reimburse
  employees for academic training even though the Agency did not have evidence of
  course completion. Based on our statistical projections, we estimate that NASA paid
  $892,490 in tuition costs without proper supporting documentation. Finally, NASA
  accepts documentation such as Internet screen captures and unofficial transcripts as
  evidence of course completion – documentation that can easily be manipulated.

  NASA Has Limited Oversight of Academic Training Provided to Contractor
  Employees. We reviewed three NASA contractors who combined spent more than


REPORT NO. IG-11-023                                                                              iii
                                                                                                          OVERVIEW



     $24 million on academic training courses for their employees between fiscal years 2006
     and 2010. NASA reimburses contractors for these costs as part of the employee benefits
     included in the overhead rate charged by the contractor. To be allowable, these costs
     must comply with the FAR requirements that training relate to the field in which the
     employee is working or may reasonably be expected to work and that the cost must not
     exceed that which would be incurred by a prudent person in the conduct of competitive
     business.

     We identified the top 20 institutions attended by employees of two of the three selected
     NASA contractors and determined that, similar to NASA civilian employees, these
     contractor employees are attending private and for-profit institutions more often than
     public institutions. As discussed previously, the cost of attending a private or for-profit
     university is significantly higher than that of a public university. 2

     NASA does not review information about contractor academic training to verify if the
     costs are reasonable or if the courses taken relate to the field in which the employees are
     working or may reasonably be expected to work. Instead, NASA contracting officers
     rely on annual audits performed by the Defense Contract Audit Agency (DCAA) to
     determine whether contractors comply with FAR requirements. However, DCAA audits
     do not test all costs on a consistent basis and specific to this review do not compare the
     costs of courses at a private or for-profit institution to the costs for the same courses at a
     public university.

     Finally, we noted that two of the three NASA contractors we reviewed reimbursed
     employees for academic credits earned for prior life or work experience. We question
     whether spending taxpayer money for these credits meets the requirements of the FAR
     that funds are spent for training related to the field in which the employee is working or
     may be reasonably expected to work. While we noted that NASA contractors have paid
     for these types of credits, we did not identify NASA civil service personnel earning
     college credit for prior life or work experience. However, NASA policy is silent on
     payment of these credits and at least 2 of the top 20 universities attended by NASA
     employees offer these types of credits.

     Management Action

     NASA should strengthen the policies, procedures, and internal controls for its academic
     training program. Specifically, NASA should only pay for academic courses for college
     degrees to employees who have been accepted into the Agency’s established academic
     degree programs. In addition, NASA should ensure that academic training expenses are
     adequately justified and tracked.


     2
         However, unlike NASA’s rules for its civil service employees, each of the three contractors we examined
         limits the amount of tuition reimbursement available to its employees to a set sum either by calendar year
         or per credit hour in their corporate policy.



iv                                                                                         REPORT NO. IG-11-023
OVERVIEW



  To ensure that academic training funds are spent appropriately and that eligible
  employees receive degrees only through the established academic degree training
  programs, we recommended that the NASA Assistant Administrator for Human Capital
  Management:

      •   Require that, prior to granting final approval of academic training, Center
          Training Offices assess the appropriateness of all academic training requests to
          ensure that employees obtain academic degrees only through established
          academic training programs;

      •   Establish a centralized mechanism for tracking the Agency’s academic training
          expenditures;

      •   Limit payment of academic tuition per credit hour, implement a cap on the total
          amount that may be reimbursed to an employee during any given year, and
          establish a formal approval process for consideration of exceptions; and

      •   Develop a mechanism to leverage the size of NASA’s civil service and contractor
          workforce to negotiate discounted tuition rates at private or for-profit universities.

  To strengthen internal controls over academic training, we recommended that the NASA
  Assistant Administrator for Human Capital Management update NASA policy to:

      •   Establish the Agency’s position on the payment of college credits for life or work
          experience and the criteria for such payment; and

      •   Require employees to submit official transcripts to document successful course
          completion.

  In response to a draft of our report, the Acting Assistant Administrator for Human Capital
  Management concurred with four of our recommendations, partially concurred with a
  fifth, and non-concurred with the sixth recommendation. The Acting Assistant
  Administrator said NASA will implement a detailed action plan no later than December
  31, 2011, to address our recommendations and update NASA policy by April 30, 2012.
  The Acting Assistant Administrator also provided technical comments on the draft, which
  we incorporated as appropriate.

  To ensure that academic training funds are spent judiciously, that eligible employees
  receive degrees only through the established academic degree training programs, and to
  strengthen internal controls over academic training, the Acting Assistant Administrator
  stated that the Office of Human Capital Management (OHCM) agreed to: establish a
  more comprehensive policy that will incorporate all academic training requests into the
  Agency academic training approval process; coordinate with the NASA Shared Services
  Center and the Office of the Chief Financial Officer to determine the most efficient
  method for tracking academic training expenditures; and coordinate with the Center
  Training Offices to negotiate discounted tuition rates for civil service employees. The


REPORT NO. IG-11-023                                                                               v
                                                                                                    OVERVIEW



     OHCM said it will also consider our recommendation to develop an Agency position on
     payment for academic credits based on prior work or life experience and incorporate
     changes in NASA’s Employee and Organizational Development policy as appropriate.
     We consider the Acting Assistant Administrator’s proposed actions to these
     recommendations responsive and will close these recommendations upon completion and
     verification of the proposed corrective actions.

     The Acting Assistant Administrator partially concurred with our recommendation to
     require employees to submit official transcripts as proof of satisfactory course
     completion, agreeing to require official transcripts for formal degree programs, while
     continuing to accept unofficial transcripts that contain the employee’s name, name of the
     educational institution, course name, course dates, and grade received for courses taken
     outside formal degree programs. Although we believe that requiring official transcripts
     for all academic courses would be the best practice, we find the proposed action
     responsive to the intent of our recommendation and will close the recommendation upon
     completion and verification of the proposed corrective actions. However, because we
     found that the Agency has not consistently ensured that unofficial transcripts contain all
     required information, we urge the Agency to take steps to ensure full compliance with
     this policy.

     The Acting Assistant Administrator took exception to limiting payments per credit hour
     and instituting caps on reimbursement amounts, stating that “the overriding factor in
     selecting academic institutions should be relevant technical excellence, not cost per credit
     hour.” We consider management’s comments unresponsive to this recommendation.
     Therefore, this recommendation is unresolved and will be resolved when the Agency
     agrees to institute caps on the cost of tuition assistance or a similar control that addresses
     our concern. While we acknowledge that technical excellence should be a factor in
     selecting a college or university, we do not agree that technical excellence is only
     attainable at the highest cost institutions. Moreover, financial caps on employee tuition
     reimbursement are common in the Government and private industry, including among
     NASA contractors who also employ work forces with a high level of technical expertise. 3




     3
         For example, the Department of Defense caps cost per credit hour at $250 and maximum funding per
         employee at $4,500 per year.



vi                                                                                    REPORT NO. IG-11-023
AUGUST 10, 2011




                                                           CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objective ___________________________________________ 4

  RESULTS
      NASA Lacks Appropriate Controls over Its Academic Training ___ 5
      NASA Has Limited Oversight of Academic Training Provided to
        Contactor Employees ______________________________ 18

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 23

  APPENDIX B
      Sampling Methodology and Projection of Results ___________ 24

  APPENDIX C
      Schedule of Questioned Costs __________________________ 25

  APPENDIX D
      Samples of Grade Submissions Accepted by NASA __________ 26

  APPENDIX E
      Management Comments ______________________________ 28

  APPENDIX F
      Report Distribution ___________________________________ 31




REPORT NO. IG-11-023
AUGUST 10, 2011




                                                                               INTRODUCTION


Background

  NASA offers its employees a variety of training and educational opportunities to
  complement work experiences and achieve better organizational and individual
  performance. Given the size of NASA’s workforce – over 18,500 civil service
  employees – this training poses a significant organizational cost. NASA officials
  estimate that between fiscal years 2006 and 2010, NASA spent approximately
  $250 million on employee training. A subset of this total expenditure was for academic
  training at colleges and universities. Specifically, between July 2006 and September
  2010, NASA spent approximately $17 million for 2,460 civil service employees to attend
  more than 10,120 academic courses at an average cost of $6,860 per employee.

  NASA pays for academic training at colleges and universities for its employees to
  enhance individual capabilities and competencies; build and retain a skilled and effective
  workforce; improve organizational performance; and maintain scientific, professional,
  technical, and managerial proficiency. 4 NASA defines academic training as a course
  taken at a nationally recognized and accredited educational institution of higher learning
  for academic credit. Employees may take individual courses related to their NASA
  duties or may, at NASA’s expense, enroll in a slate of courses to earn an academic
  degree. NASA may pay for or reimburse an employee for courses taken in pursuit of a
  degree if the degree will contribute significantly to meeting an Agency training need or
  resolving a staffing problem. Federal law prohibits NASA from paying for academic
  degrees except through planned, systemic, and coordinated employee development
  programs linked to accomplishing the Agency’s strategic goals. 5

  Consistent with Federal law, NASA has established academic degree training programs
  that allow employees to pursue undergraduate or advanced degrees in NASA mission-
  related fields such as aeronautical engineering and astronomy. NASA’s graduate degree
  programs are designed to provide employees the opportunity to pursue approved
  programs of study related to their job functions, needed competencies, and the Agency’s
  strategic goals. Similarly, the undergraduate degree programs are designed to develop
  the expertise required to accomplish strategic goals and objectives of the various NASA
  Centers and to provide an internal source of qualified candidates for occupations in which
  a shortage exists – specifically, where a Center has identified a continuing future need –
  and an academic degree is a prerequisite for the position. However, NASA guidance
  4
      Training and development in the Federal Government is generally governed by the Government
      Employees Training Act, 5 U.S.C. Chapter 41. Regulations are contained in 5 C.F.R Part 410. NASA
      Policy Directive 3410.2F, “Employee and Organizational Development,” April 9, 2009, contains
      additional NASA-specific guidance.
  5
      5 U.S.C. §4107.



REPORT NO. IG-11-023                                                                                     1
                                                                                 INTRODUCTION



    does not detail how the Centers should establish or document a staffing shortage in a
    particular area.

    To participate in one of NASA’s established formal degree programs that pay for
    undergraduate and graduate courses, the employee is required to formally apply for
    acceptance and have specific coursework approved on an annual basis by their respective
    Center’s Training Office. Furthermore, participants are required to achieve minimum
    grade requirements, maintain acceptable standing with the college or university and
    NASA for the duration of enrollment in the program, and also commit to a period of
    continued service with the Agency after completion of their coursework. The number of
    employees accepted into a formal degree program varies by Center and is contingent on
    the Center training budget. In addition, the types of degree programs offered varies based
    on Center priorities. For example, Goddard Space Flight Center identified a need to
    increase the pool of qualified candidates in its procurement workforce, whereas Kennedy
    Space Center funds academic degrees in aerospace technology. NASA employees who
    do not participate in a formal degree program may request to attend academic training on
    a course-by-course basis, but each course must relate to the employee’s current or
    anticipated duties and generally be approved by their immediate supervisor, directorate
    Training Coordinator, and the Center Training Office.

    Moreover, whether as part of a formal degree program or on a course-by-course basis,
    NASA is not permitted to pay for training for the sole purpose of providing an employee
    an opportunity to obtain an academic degree or to qualify for a particular position for
    which the academic degree is a basic requirement. In other words, NASA cannot spend
    taxpayer’s funds to send employees to college solely to make them better educated or to
    enable them to qualify for a better paying position within NASA.

    NASA funds academic training through annual budget allocations to each Center. In
    turn, each Center distributes a portion of those funds to the Center Training Office for
    allocation and use. This funding supports all Center training, including the formal
    academic degree programs and academic classes taken on a course-by-course basis.
    Center directorates may supplement this funding with their own operating funds at their
    discretion.

    The Office of Human Capital Management at NASA Headquarters is responsible for
    general oversight of NASA’s training programs. However, day-to-day authority over the
    programs rests with the individual NASA Centers under the assumption that Center
    officials are in the best position to know what competencies they require. Accordingly,
    each Center and Headquarters has a Training Office responsible for determining and
    allocating training budgets, developing training programs, and approving requests for
    attendance at external training.




2                                                                         REPORT NO. IG-11-023
INTRODUCTION



  Examples of several established academic training opportunities offered by NASA are
  described below:

      •   Goddard Space Flight Center sponsors the Part-Time Graduate Study Program
          and the Undergraduate Study Program through which employees may pursue
          academic study that enhances their ability to make significant contributions to the
          Center. Goddard also sponsors the Procurement Operations Division
          Undergraduate Degree Program. This program offers employees an opportunity
          to pursue undergraduate degrees in contracting and procurement fields to increase
          the pool of qualified candidates for the procurement workforce.

      •   NASA Headquarters sponsors the Graduate Study Program and the Continuing
          Education Program. The Graduate Study Program is designed to provide
          employees an opportunity to pursue approved graduate study programs on a part-
          time basis while performing their official duties. The Continuing Education
          Program provides funding for eligible employees to attend approved college
          courses that relate to a specific career goal.

      •   Kennedy Space Center sponsors the Kennedy Undergraduate Studies Program
          under which eligible employees pursue academic degrees in the field of
          Aerospace Technology. Additionally, the Kennedy Graduate Fellowship Program
          enables eligible employees to be reimbursed for masters and doctoral courses that
          help accomplish the Center’s strategic goals and objectives.

  The NASA Shared Services Center (NSSC) is responsible for processing, procuring, and
  collecting employee training data, including data related to academic training courses.
  This data is submitted, tracked, and recorded in an electronic training application known
  as the System for Administration, Training, and Educational Resources for NASA, or
  SATERN. Employees initiate the training approval process by entering a request in
  SATERN. The employee’s supervisor, the directorate Training Coordinator, and the
  Center Training Office must approve all academic training requests. NSSC obligates
  funds and submits payment for the training after verifying that all required information
  and approvals have been submitted. Upon completion of the academic course, employees
  are required to provide a copy of their grade. If the grade does not meet NASA’s
  minimum requirements, NASA may pursue reimbursement of the funds from the
  employee.

  NASA also pays for academic training for contractor employees if such training is part of
  the company’s contract with NASA. Academic training costs are included in a
  contractor’s overhead account as part of employee fringe benefits. The overhead account
  includes not only academic training but also other employee benefits such as medical
  benefits, life insurance, state and federal taxes, childcare, retirement, and stock options.

  The Federal Acquisition Regulation (FAR) governs whether particular costs are
  allowable in Government contracts. With respect to a contractor paying for academic
  training for employees, the FAR provides that the cost of training and education related


REPORT NO. IG-11-023                                                                             3
                                                                                    INTRODUCTION



    to the field in which the employee is working or may reasonably be expected to work are
    allowable. 6 Additionally, the FAR specifies that a cost is reasonable if, in its nature and
    amount, it does not exceed that which a prudent person in the conduct of competitive
    business would incur. 7


Objective

    The objective of our audit was to examine NASA’s controls over its academic training
    program. In particular, we reviewed whether costs are reasonable, if courses relate to
    employees’ duties and the Agency mission, and if controls are in place to ensure effective
    management of academic training expenditures. To conduct our audit, we reviewed
    relevant documentation and interviewed staff at NASA Headquarters, the NSSC, and four
    NASA Centers. See Appendix A for details of the audit’s scope and methodology, our
    review of internal controls, and a list of prior audit coverage.




    6
        FAR pt. 31.205-44, Training and Education Costs.
    7
        FAR pt. 31.201-3, Determining Reasonableness.



4                                                                           REPORT NO. IG-11-023
RESULTS




                   NASA LACKS APPROPRIATE CONTROLS OVER ITS
                                         ACADEMIC TRAINING

          NASA lacks the internal controls necessary to properly monitor and execute its
          academic training program. As a result, NASA paid $1.44 million for 57 employees
          at Headquarters and the four Centers we tested to obtain academic degrees outside of
          its established program that requires formal application and approval. At least one of
          these employees had applied for acceptance into a formal degree program and was
          rejected. Because these employees bypassed NASA’s formal degree programs, they
          were not required to sign continued service agreements with the Agency and
          therefore had no obligation to continue to work for NASA despite the Agency’s
          substantial investment in their educations. Moreover, without a formal review and
          approval of their academic plans, NASA may be funding a course of study for these
          employees that is not aligned with the Agency’s priorities. We also found that,
          unlike other Federal agencies, NASA generally does not limit the amount of money
          it will pay for each employee’s academic training or the amount it will reimburse per
          academic credit. Nor does NASA policy address payment for credits based on life or
          work experience. We also found instances in which NASA paid for employee
          academic training without adequate documentation of course completion. In
          addition, NASA could not identify the total amount it spent providing academic
          training to civil service employees. Finally, although Center training officials
          approve all training requests, they do not have authority over the use of directorate
          funding or insight into the appropriateness of particular training requests.
          Consequently, NASA’s academic training program is vulnerable to abuse.


NASA Employees Are Circumventing Established Programs to
 Obtain Academic Degrees

  NASA is paying for employees to obtain academic degrees outside of the Agency’s
  established academic degree programs. We identified 57 employees at Headquarters and
  the four Centers we visited – Goddard, Johnson, Kennedy, and Langley – who are
  pursuing or have obtained academic degrees outside of NASA’s established degree
  programs at a cost to the Agency of $1.44 million (see Figure 1). For 18 of those 57
  employees, NASA paid over $30,000 per employee for academic courses, while one
  employee received over $60,000.

  Under Federal law and NASA policy, the Agency may pay for or reimburse employees
  for the cost of an academic degree only as part of an Agency employee development
  program linked to accomplishing the strategic goals of the Agency. Moreover, the course
  of study must contribute significantly to meeting an identified Agency training need or




REPORT NO. IG-11-023                                                                           5
                                                                                         RESULTS



    resolve a staffing problem. 8 Furthermore, the Agency cannot use taxpayer’s funds for the
    sole purpose of providing an employee an opportunity to obtain an academic degree or
    qualify for appointment to a particular position. Headquarters and each of the four
    Centers we visited have established formal academic degree programs for employees to
    obtain advanced degrees. In addition, Goddard and Kennedy have implemented
    academic degree programs for employees to pursue undergraduate degrees.

    Figure 1. Expenditures for the 57 NASA Employees Pursuing Degrees Outside of
    Established Programs at Headquarters and the Four Centers Reviewed


           Goddard Space Flight Center   $65,972.00

                          Headquarters    $94,960.00

                 Johnson Space Center                  $306,229.70

                Kennedy Space Center                                       $761,431.97

              Langley Research Center            $209,602.32




    To test whether employees who either did not apply or were not accepted into formal
    degree programs were actually pursuing degrees, we judgmentally selected 40 academic
    courses taken by 37 NASA employees, such as religion and humanities courses, that did
    not appear related to NASA’s mission. We then met with Center Training Officials,
    directorate training coordinators, and the supervisors of the employees to determine
    whether the courses we identified related to the employees’ job functions and NASA’s
    mission. We determined that 3 out of 37 employees from this sample were attending
    courses unrelated to their job functions and therefore appeared to be pursuing college
    degrees outside of NASA’s established degree programs.

    Based on these results, we expanded our testing to all academic courses attended by
    NASA employees at Kennedy, Johnson, Goddard, Headquarters, and Langley between
    July 2006 and September 2010. We removed from this data set all civil service personnel
    participating in established degree programs. From this smaller group we identified all
    employees who had taken eight or more courses with a total cumulative cost of at least
    $15,000. This resulted in our identification of an additional 54 employees who were not
    participating in the formal academic degree programs offered by their Centers but were

    8
        5 U.S.C. §4107.



6                                                                        REPORT NO. IG-11-023
RESULTS



  nevertheless pursuing academic degrees. We believe this figure is conservative as we
  only performed detailed testing at four NASA Centers and Headquarters. Had we
  reviewed all NASA Centers, we believe this number would be substantially higher.

  We found that NASA managers were permitting employees to circumvent NASA’s
  formal degree programs by using program or directorate funds to finance individual
  classes on a course-by-course basis in pursuit of an academic degree. Center Training
  Officials told us they have historically lacked authority to question courses taken with
  program or directorate funds because they are not responsible for such funding. The
  Center-based Training Office’s only visibility over academic training paid for with
  program or directorate funds is approving training requests in SATERN on a course-by-
  course basis. The Center Training Office has limited visibility of an employee’s
  complete body of academic work, and in most cases will approve academic training if the
  course is first approved by the directorate and generally appears related to the employee’s
  official duties. Moreover, Center Training Officials said they generally rely on
  employees’ supervisors to ensure that academic courses relate to employees’ official
  duties.

  Several approving officials who had approved courses outside of formal degree programs
  told us they felt pressure to do so from senior management. One official readily admitted
  that there was no alignment between the academic courses the employees we identified
  had taken and the critical needs of the Center or NASA as a whole. In addition, officials
  told us that in some instances individual academic training courses were approved and
  paid for by NASA after the employees were denied entry into NASA’s established
  academic degree programs. Indeed, we identified one employee in our sample who had
  been rejected for participation in a formal degree program yet NASA paid for eight
  academic courses over a 2-year period.

  Center Training Officials claimed that several of the employees we identified had
  obtained their degrees as a by-product of attending multiple single courses related to their
  official duties. However, several factors lead us to believe these employees were actively
  pursuing degrees. First, as noted above, 54 of the 57 individuals we identified attended at
  least eight courses at a single institution between July 2006 and September 2010 at a cost
  to NASA of over $15,000 each. Second, some of these employees took courses like
  College Mathematics, English Composition, and Introduction to Philosophy that do not
  appear to be related to their official duties. While we understand that such classes may
  be prerequisites to a degree and therefore might be paid for by NASA as part of a formal
  degree program, we do not believe they qualify for reimbursement on a stand-alone basis.
  Similarly, NASA paid for 39 thesis project or dissertation courses for a total cost of
  $101,347 for 16 individuals who were not participating in a formal degree program.
  Again, a thesis or dissertation is a requirement of a degree program and is therefore, in
  our judgment, an indication that the employee was seeking an advanced degree.




REPORT NO. IG-11-023                                                                             7
                                                                                        RESULTS



    To illustrate the types of degrees employees pursued outside of formal programs, we list
    several examples and include the cost to NASA between July 2006 and September 2010:

       •   A secretary at Headquarters pursued a bachelor’s degree in business
           administration at Strayer University at a cost to NASA of $37,025. Unlike some
           other Centers, NASA Headquarters has no formal program under which
           Headquarters-based employees can be reimbursed for pursuing an undergraduate
           degree.

       •   A secretary at Johnson Space Center pursued a bachelor’s degree in business
           administration at the University of Phoenix at a cost to NASA of $13,770. Like
           NASA Headquarters, Johnson Space Center has no formal undergraduate degree
           programs.

       •   A management and program analyst at Kennedy Space Center obtained a master
           of science degree in software engineering from the Florida Institute of
           Technology at a cost to NASA of $18,240.

       •   A program analyst at Kennedy Space Center obtained a master of arts degree in
           human resources management at Webster University at a cost to NASA of
           $15,705.

    By funding academic degrees outside of its established programs, NASA is violating
    Federal law and its own requirements that such funding must be part of a planned,
    systemic, and coordinated Agency employee development program linked to
    accomplishing the Agency’s strategic goals. Moreover, NASA has no assurance that
    degrees funded outside of its formal programs will contribute, as required by Federal law,
    to meeting an identified training need or resolving an identified staffing problem.

    Continued Service Agreements. A continued service agreement commits an employee
    to working for NASA for a pre-established period in exchange for Agency funded
    training or education. NASA employees who attend any training course that takes more
    than 80 hours to complete are required to accept a continued service agreement. If the
    employee voluntarily leaves NASA before completing the service obligation, the
    employee must repay NASA all or some of the costs of the training. According to
    Agency policy, NASA may waive its right to recover the money if repayment would be
    against equity and good conscience or is in the public interest.

    NASA generally does not require a service commitment from employees who take
    individual academic courses that take less than 80 hours. Conversely, employees in
    NASA’s formal degree programs are generally required to sign a service commitment
    obligating them to stay with the Agency for at least 1 year after obtaining an
    undergraduate degree and 3 years after obtaining a graduate degree. Employees who
    pursue academic degrees at NASA’s expense outside of NASA’s formal programs avoid
    the continued service commitment required of their counterparts in the formal programs.



8                                                                         REPORT NO. IG-11-023
RESULTS



  We identified two employees who attended 16 academic training courses outside of a
  formal program and left the Agency within 6 months of completing their last course. One
  employee at Kennedy transferred to another Federal agency after attending 10 courses at
  Embry Riddle Aeronautical University over a 2-year period at a cost of approximately
  $10,000. We compared the courses taken by this employee to the graduate degree
  programs offered by the University. Nine of the 10 courses were part of the core
  requirements for a master’s degree in aeronautical science. The remaining course was
  titled “Methods and Procedures for the Graduate Capstone Project.” Another employee
  at Johnson resigned from the Federal Government after attending six courses over a 1-
  year period at Capella University at a cost to NASA of approximately $12,000. These
  courses consisted of the core requirements for a doctorate degree in leadership. Based on
  our analysis, we believe both of these employees were pursuing graduate degrees at
  NASA’s expense outside of the Agency’s formal program. Because neither employee
  signed a 3-year service commitment that is typically required of graduate degree program
  participants, we question the benefit to NASA of providing $22,000 in tuition
  reimbursements to these former employees.

  We verified with the Center Training Offices that none of the 57 employees we identified
  as working toward academic degrees outside of NASA’s established degree programs
  had signed continued service agreements for the degree. Had these employees pursued
  their degrees through the established programs, a continued service agreement would
  have been required. Without a commitment by these employees to continued service or
  repayment, NASA’s $1.44 million investment is at risk.

  Because it is unclear what benefit NASA received for its $1.44 million investment in
  these employees, we question the Agency’s expenditure of these funds (see Appendix C
  for a Schedule of Questioned Costs). In addition, because this $1.44 million figure only
  represents tuition payments for a sample of employees at Headquarters and the four
  Centers where we conducted detailed audit work, we believe an examination across all
  NASA Centers likely would result in substantially higher questioned costs.


NASA Cannot Identify the Total Cost of Providing Academic
 Training to Its Civil Service Employees

  NASA does not know how much it spends on academic training for civil service
  employees. The Workforce Management and Development Division, Office of Human
  Capital Management, NASA Headquarters is responsible for general oversight of
  NASA’s training program. However, overall training budgets are provided as part of
  each Center’s operating budget and these funds are distributed to the Center Training
  Office for allocation and use. Accordingly, the Workforce Management and
  Development Division does not centrally manage NASA’s academic training programs
  and has little oversight of academic training expenses or activities from an Agency-wide
  perspective. Moreover, because individual directorates at the Centers can subsidize
  training funds with program funds, control over training funds is further decentralized.


REPORT NO. IG-11-023                                                                          9
                                                                                          RESULTS



     Compounding the problem, NASA does not separately track academic training
     expenditures in its financial system. Currently, only overall training expenses are
     recorded, and the Agency has no way to separate an academic training expenditure from
     other types of training. Although academic training requests (including estimated costs)
     are separately tracked in SATERN, SATERN was not designed as a financial system and
     does not track actual expenditures. Accordingly, the figures attributed to academic
     training in SATERN do not necessarily reflect the amount NASA actually expended.
     After the training has taken place, NASA manually reconciles the figure reported in
     SATERN with actual expenditures. However, the lack of an automated reconciliation
     process increases the likelihood that the SATERN data is inaccurate.

     Nevertheless, NASA relies on the data in SATERN to report employee training
     information to the Office of Personnel Management. Accordingly, we used this data to
     estimate that NASA spent approximately $17 million on employee academic training
     between July 2006 and September 2010.


NASA Has Not Structured Its Academic Training Program to
 Maximize Potential Savings

     NASA neither caps tuition rates nor places an annual spending limit per employee on
     academic training. As a result, NASA employees have no incentive to seek academic
     training from less expensive public educational institutions and instead often attend more
     expensive private or for-profit universities.

     The cost of academic training varies depending on a number of factors including the
     specific course of study, the type of institution attended, and whether employees are
     attending college courses as part of an established academic degree program or on a
     class-by-class basis. For example, one employee at Langley pursued a doctorate degree
     through the Center’s full-time, graduate study program at the Georgia Institute of
     Technology at a total cost to NASA of $140,000. Likewise, through the formal degree
     program at Kennedy an employee pursued a master’s of science degree at the
     Massachusetts Institute of Technology at a total cost of $74,000. Conversely, NASA
     paid $3,020 for a Dryden employee to attend a graduate level Accounting Information
     Systems course at a for-profit institution and $1,284 for a Headquarters employee to
     attend a similar course at a public institution.

     As previously discussed, we determined that NASA spent approximately $17 million for
     2,460 employees to attend 10,120 academic training courses between July 2006 and
     September 2010 at an average cost of $6,860 per employee. We identified the top 20
     universities attended by NASA employees based on the amount of tuition paid and found
     that 11 of the top 20 universities attended were private or for-profit institutions (see
     Figure 2 and Table 1).




10                                                                         REPORT NO. IG-11-023
RESULTS



   Figure 2. Categories of the Top 20 Institutions, by Expenditure, Attended by
   NASA Civil Service Personnel July 2006-Septmber 2010



                         Private Not-                     Public,
                          For-Profit,                   $3,808,226
                         $4,467,808                       (41%)
                            (48%)

                                         Private For-
                                            Profit,
                                         $1,069,486
                                            (11%)




   Table 1. Top 20 Institutions, by Expenditure, Attended by NASA Civil Service Personnel
   July 2006-Septmber 2010
                                                                                 Expenditures
                      Institution                                    Type        FY 2006-2010
   University of Alabama at Huntsville                  Public                     $708,236
   Johns Hopkins University                             Private Not-for-Profit     $666,219
   Stevens Institute of Technology                      Private Not-for-Profit     $644,171
   Stanford University                                  Private Not-for-Profit     $593,994
   University of Maryland University College            Public                     $593,739
   Florida Institute of Technology                      Private Not-for-Profit     $592,210
   University of Phoenix                                Private For-Profit         $589,866
   George Washington University                         Private Not-for-Profit     $564,617
   Georgia Institute of Technology                      Public                     $529,079
   Case Western Reserve University                      Private Not-for-Profit     $480,285
   Strayer University                                   Private For Profit         $479,620
   University of Southern California                    Private Not-for-Profit     $455,542
   University of Central Florida                        Public                     $430,586
   University of Houston at Clear Lake                  Public                     $396,922
   University of Maryland                               Public                     $356,192
   University of Florida                                Public                     $337,106
   Cleveland State University                           Public                     $247,085
   Embry-Riddle Aeronautical University                 Private Not-for-Profit     $236,511
   Massachusetts Institute of Technology                Private Not-for-Profit     $234,259
   Purdue University                                    Public                     $209,281
               Total                                                             $9,345,520




REPORT NO. IG-11-023                                                                            11
                                                                                                        RESULTS



     We determined the tuition rates for graduate and undergraduate studies for each of these
     institutions for the fall 2010 or spring 2011 sessions. Using these tuition rates, we
     calculated an average rate for each university by adding their graduate and undergraduate
     rates together and dividing by two. We then grouped all of the average rates calculated
     by category (public, private for-profit, or private not-for-profit) to get an average rate per
     category and compared the three categories. 9 By comparing the average rate per
     category, we determined that the average cost per credit hour for private not-for-profit
     universities and private for-profit universities were 3.6 times and 1.6 more expensive,
     respectively, than public universities. Based on these calculations, for every credit hour
     paid by NASA at a private not-for-profit university or private for-profit university, the
     Agency could have paid for 3.6 or 1.6 credits, respectively, at a public university (see
     Figure 3).

     Figure 3. Average Tuition Rate, per Credit, at the Top 20 Institutions,
     by Expenditure, Attended by NASA Civil Service Personnel


          $1,200

          $1,000            $1,129

            $800

            $600

            $400                                 $511
            $200                                                    $317

              $0
                      Private Not-for-   Private For-Profit      Public
                           Profit



     In addition, we found that the Agency funded multiple academic degrees for nine
     employees. Six of these employees pursued an undergraduate degree followed by a
     graduate degree, while the other three employees pursued both a master’s and a doctorate
     degree at a total cost of $136,284 for all nine employees.

     Other Federal agencies place limits on the tuition assistance available to employees. For
     example, the Department of Defense (DOD) caps cost per credit hour at $250 and
     maximum funding per employee at $4,500 per year. By instituting similar caps, NASA
     could provide academic training to more employees or possibly save a significant amount
     of money over time.

     9
         For example, the rates per credit hour at the University of Alabama at Huntsville are $344
         (undergraduate) and $514 (graduate). We added $344 and $514 and divided by 2 to determine an
         average per-credit tuition rate of $429 for this university.



12                                                                                    REPORT NO. IG-11-023
RESULTS



  NASA Is Not Leveraging Its Economies of Scale to Obtain Discounts at Private or
  For-Profit Universities. NASA is not consistently seeking opportunities to obtain
  discounted tuition rates at the private and for-profit universities most frequently attended
  by its employees and contractors. Consequently, the Agency may be paying higher
  tuition rates than necessary. For example, between 2006 and 2010 NASA civil service
  personnel and employees at two of NASA’s prime contractors spent approximately $2
  million to attend courses at the Florida Institute of Technology. The school currently
  offers discounts ranging from 5 to 10 percent off the cost of tuition through their “cohort”
  program. Had NASA and the contractors worked together to negotiate an agreement with
  the university, NASA and its contractors could have saved from $100,000 to $200,000 in
  tuition costs. In contrast, Goddard entered into Space Act Agreements with two for-
  profit universities to leverage a 5 percent discount on academic training for civil service
  personnel. 10 Because NASA does not track academic training expenditures or
  universities attended from an Agency-wide perspective, NASA is missing opportunities
  to leverage tuition discounts and stretch its training dollars.


NASA Policy Silent on Academic Credit for Life or Work
 Experience

  At some colleges and universities, students can receive academic credit based on their life
  experiences, their professional training, or licenses or certificates they already hold.
  Some institutions will grant as many as 30 such life or work experience credit hours
  toward an undergraduate degree without testing. In such cases, employees are not
  acquiring new information, skills, or expertise but instead receive credit for skills they
  already possess. While we did not identify any NASA civil service personnel who may
  have received life or work experience credits at NASA’s expense, at least two of the
  universities most frequently attended by NASA employees offer these credits.

  NASA’s policy is silent on the issue of payment for credits for prior life or work
  experience. However, NASA Headquarters training officials expressed the view that
  such credits may be cost effective by helping an employee complete his or her degree in a
  shorter timeframe. Outside of pursing an academic degree, it is unclear how earning
  these types of credits enhances employee performance or the Agency’s mission. The lack
  of policy combined with the weak internal controls that permitted 57 employees to obtain
  degrees outside of formal programs suggest that it is also possible that NASA may be
  paying for these credits outside of formal degree programs. In our judgment, NASA
  should provide clear guidance to define when the Agency will pay for such credits.
  Further, Center Training Offices should perform a thorough review of these credits to
  ensure that payment for this purpose is the best use of academic training funds.


  10
       NASA uses Space Act Agreements with people and organizations in the private and public sector to
       advance NASA program objectives. The Agreements establish a set of legally enforceable promises
       between NASA and the other party.



REPORT NO. IG-11-023                                                                                      13
                                                                                                     RESULTS



Grades Were Not Consistently Supported by Appropriate
  Documentation

     NASA policy states that the Agency will only pay for academic coursework that is
     successfully completed. For undergraduate courses this means a grade of “C” or better
     and for graduate courses a grade of “B” or better. 11 Employees are expected to repay the
     Agency if they do not obtain a passing grade or fail to complete the course. To show
     successful course completion, employees are required to submit a copy of their transcript,
     report card, or Internet screen capture of the online grade record within 20 days of course
     completion.

     We reviewed 97 randomly selected training requests to determine whether employees had
     met NASA’s requirements for grade reporting. Of the 97 records we tested, NASA was
     able to provide supporting grade submissions for 90 courses. However, NASA was
     unable to provide evidence of grade submissions to support the other seven requests, even
     though the Agency paid a total of $8,555 for six of the seven courses. 12 Based on our
     statistical projections, we estimate that during the timeframe of our audit, NASA paid
     $892,490 in tuition costs without proper documentation of course completion. (See
     Appendix B for the Sampling Methodology and Projection of Results and Appendix C
     for a Schedule of Questioned Costs.)

     Moreover, for the 90 cases in which grades had been submitted, we question the
     reliability of some of the evidence accepted by NASA. The majority of the 90
     submissions consisted of Internet screen captures from university websites, many of
     which did not include identifying information such as employee name or university
     attended. By accepting such unofficial records, NASA risks paying for courses that were
     not successfully completed. For example, in 2009 the OIG obtained a criminal
     conviction of a NASA contractor employee who altered a grade document in order to
     obtain payment for classes she had not successfully completed. See Appendix D for
     examples of grade submissions accepted by NASA.




     11
          NASA Policy Directive 3410.2F, “Employee and Organizational Development,” April 9, 2009.
     12
          NASA was unable to determine whether it had paid for the seventh course.



14                                                                                   REPORT NO. IG-11-023
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

We recommended that the NASA Assistant Administrator for Human Capital Management:

Recommendation 1. Require that, prior to granting final approval of academic training,
Center Training Offices assess the appropriateness of all academic training requests to
ensure that employees obtain academic degrees only through established academic training
programs.

  Management’s Response. The Acting Assistant Administrator for Human Capital
  Management concurred with our recommendation and stated that the Office of Human
  Capital Management (OHCM) will coordinate with the Center Training Offices to
  establish a more comprehensive policy which will incorporate all academic training
  requests into the Agency academic training approval process and help ensure that
  academic training is in alignment with Agency mission objectives.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to the intent of the recommendation; therefore, the recommendation is
  resolved and will be closed upon completion and verification of the proposed action.

Recommendation 2. Establish a centralized mechanism for tracking the Agency’s
academic training expenditures.

  Management’s Response. The Acting Assistant Administrator concurred, stating that
  OHCM will coordinate with the NASA Shared Services Center and the Office of the
  Chief Financial Officer to determine the most efficient method for tracking academic
  training expenditures.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to the intent of the recommendation; therefore, the recommendation is
  resolved and will be closed upon completion and verification of the proposed actions.

Recommendation 3. Limit payment of academic tuition per credit hour, implement a cap
on the total amount an employee may receive for academic training during any given year,
and establish a formal approval process for consideration of exceptions.

  Management’s Response. The Acting Assistant Administrator did not concur with our
  recommendation, stating that “the overriding factor in selecting academic institutions
  should be relevant technical excellence, not cost per credit hour.” However, the Acting
  Administrator also stated that OHCM will utilize the policy changes made in response to
  Recommendation 1 to ensure that NASA is procuring academic training that best meets
  the needs of the Agency and that, when reviewing academic training requests, Center
  Training Offices will consider school quality, best value for the Government, and
  whether courses are available at a lower-cost institution. In addition, OHCM said it will



REPORT NO. IG-11-023                                                                          15
                                                                                            RESULTS



     benchmark other Government agencies and private companies to determine best practices
     in this area.
     Evaluation of Management’s Response. We consider management’s comments
     unresponsive to this recommendation. Therefore, this recommendation is unresolved and
     will be resolved when the Agency agrees to institute caps on the cost of tuition assistance
     or a similar control that addresses our concern. While we acknowledge that technical
     excellence should be a factor in selecting a college or university, we do not agree that
     technical excellence is only attainable at the highest cost institutions. Moreover, while
     applying the policy changes referenced in management’s response to Recommendation 1
     should help ensure that academic courses are aligned with NASA’s mission, the proposed
     action does not address the cost of these courses.

     Instituting financial caps on employee tuition reimbursement is common in the
     Government and private industry. As part of our audit, we benchmarked tuition
     reimbursement practices at the Department of Defense, which caps cost per credit hour at
     $250 and maximum funding per employee at $4,500 per year. We also reviewed the
     practices of three large businesses with NASA contracts totaling over $1 billion. Each of
     these private companies provides space-related services and products to NASA that
     require high levels of technical expertise. Yet each of these businesses limits the amount
     it will reimburse employees for academic training either by calendar year or by credit
     hour. By instituting similar caps, NASA could provide academic training to more
     employees or possibly save a significant amount of money over time.
Recommendation 4. Develop a mechanism to leverage the size of NASA’s civil service
and contractor workforce to negotiate discounted tuition rates at private or for-profit
universities.

     Management’s Response. The Acting Assistant Administrator concurred, stating that
     OHCM will coordinate with the Center Training Offices to negotiate discounted tuition
     rates for civil servant employees. However, he noted that in the past such negotiations
     have sometimes been unsuccessful because Centers could not meet the guaranteed
     minimum number of enrollments the institutions required.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to the intent of the recommendation; therefore, the recommendation is
     resolved and will be closed upon completion and verification of the proposed actions.
     We believe that the decentralized nature of NASA’s academic training program,
     including the lack of centralized reporting on total expenditures or institutions attended,
     may have contributed to the difficulty the Agency has experienced in past attempts to
     negotiate discounts. Implementing Recommendation 2 should provide the Agency with
     the information necessary to overcome some of these obstacles. In addition, we suggest
     that NASA involve the NSSC in this process, as the negotiation of discounts for
     employee training is one of the services NSSC provides to NASA.

Recommendation 5. Establish the Agency’s position on the payment of college credits
earned for life or work experience and the criteria for such payment.


16                                                                           REPORT NO. IG-11-023
RESULTS



  Management’s Response. The Acting Assistant Administrator concurred and stated that
  OHCM will examine the issue and incorporate any necessary changes into NASA policy.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to the intent of the recommendation; therefore, the recommendation is
  resolved and will be closed upon completion and verification of the proposed actions.
Recommendation 6. Require employees to submit official transcripts to document
successful course completion.

  Management’s Response. The Acting Assistant Administrator partially concurred,
  stating that although OHCM agrees with the intent of this recommendation, it does not
  believe the “expense and extra logistics” of obtaining an official transcript should be
  required for all courses. The Acting Administrator proposes that an official transcript
  only be required at the culmination of a degree program and that for individual courses
  the Agency continue to require unofficial transcripts and/or grade reports that include the
  employee’s name, name of the educational institution, course name, course dates, and
  grade received.

  Evaluation of Management’s Response. The Acting Assistant Administrator partially
  concurred with this recommendation, and instead proposed requiring official transcripts
  only for degree programs. Although we believe that requiring official transcripts for all
  academic courses would be the best practice, we consider the Agency’s proposed action
  to be responsive to our recommendation provided that the Agency also takes steps to
  ensure compliance with its existing policy that unofficial transcripts and/or grade reports
  be provided prior to payment and include the employee’s name, name of the educational
  institution, course name, course dates, and grade received. As noted in the report, we
  found instances in which payment was made by the Agency in the absence of complete
  information. Nevertheless, the recommendation is resolved and we will close the
  recommendation upon completion and verification of this corrective action.




REPORT NO. IG-11-023                                                                            17
                                                                                                           RESULTS




                               NASA HAS LIMITED OVERSIGHT OF ACADEMIC
                                     TRAINING PROVIDED TO CONTRACTOR
                                                            EMPLOYEES

                NASA funds academic training for contractor employees if the cost is negotiated as
                part of the company’s contract with NASA. However, we found NASA provides no
                oversight of academic training provided to its contractor employees. The FAR
                provides that the “cost of training and education that are related to the field in which
                the employee is working or may reasonably be expected to work are allowable,” but
                NASA contracting officers have no knowledge of the types of academic training
                attended by contractor employees or their associated costs.


Oversight of Contractor Academic Training

     NASA funds academic training for contractor employees by reimbursing tuition costs
     included in the contractor’s overhead account as part of employee fringe benefits. On
     NASA’s behalf, the Defense Contract Management Agency (DCMA) negotiates the
     overhead costs with audit support from the Defense Contract Audit Agency (DCAA).
     These costs must comply with the FAR to be allowable. According to the FAR, to be an
     allowable cost the training must relate to the field in which the employee is working or
     may reasonably be expected to work and must not exceed that which would be incurred
     by a prudent person in the conduct of competitive business. 13

     During the initial phase of the audit, we reviewed academic training at United Space
     Alliance, a large NASA contractor. In addition, we judgmentally selected two other
     NASA contractors, Alliant Techsystems and Wyle Laboratories. The value of these three
     companies’ contracts with NASA exceeds $1 billion. Each of the contractors provided us
     with their tuition assistance policy, internal audits conducted on academic training, and
     information concerning academic training attended by their employees who worked on
     NASA contracts between fiscal years 2006 and 2010. Based on our analysis of the data,
     we determined that the three contractors spent a total of $24 million to provide academic
     training for their employees during this period. Specifically:

            •   United Space Alliance spent $18,754,983 for 2,109 employees to attend academic
                courses at an average cost of $8,893 per employee. 14

            •   Alliant Techsystems spent $5,118,601 for 597 employees to attend academic
                courses at an average cost of $8,574 per employee.


     13
          FAR 31.205-44, Training and Education Costs and FAR 31.201-3, Determining Reasonableness.
     14
          United Space Alliance provides employees with a onetime cash award for completion of a degree.



18                                                                                      REPORT NO. IG-11-023
RESULTS



         •   Wyle Laboratories spent $207,271 for 63 employees to attend academic courses at
             an average cost of $3,290 per employee.

  Similar to our examination for NASA civil service employees, we identified the top 20
  institutions attended by employees at United Space Alliance and Alliant Techsystems
  (Wyle Laboratories provided information on classes attended but not by institution). We
  determined that, like civil service personnel, these contractor employees are attending
  private and for-profit institutions at a higher rate than public institutions. For example,
  for employees of one contractor, 15 of the top 20 institutions attended were private or for-
  profit, while for employees of the second contractor, 12 of top 20 institutions attended
  were private or for-profit. As demonstrated with the civil service workforce, the cost of
  attending a private or for-profit institution is significantly higher than that of a public
  institution.15

  While NASA contracting officers do not review and approve the rate for overhead costs,
  they have the authority to enter into, administer, and terminate contracts and make related
  determinations and findings. NASA contracting officers are also responsible for ensuring
  performance of all necessary actions for effective contracting, ensuring compliance with
  the terms of the contract, and safeguarding the interests of the United States in its
  contractual relationships. However, we found that NASA is not reviewing contractor
  academic training costs, even on a sample basis, to determine if the costs are reasonable
  or if the courses taken relate to the field in which the employee is working. Instead,
  NASA contracting officers rely on annual “incurred cost audits” conducted by DCAA to
  determine whether contractors comply with the FAR.

  However, relying solely on DCAA audits is problematic because these audits do not test
  all contractor costs on a consistent basis and do not necessarily compare the costs of
  courses at a private or for-profit institution to the costs for the same courses at a public
  university. Further, a DCAA representative told us that DCAA has not audited academic
  training costs because, in relation to the overall employee fringe benefit account, these
  costs were not significant enough to warrant a detailed review. As a result of our inquiry,
  DCAA has included academic training in its incurred cost audit of one of the contractors
  we identified. DCAA has not yet released the results of its audit.

  We also determined that United Space Alliance and Alliant Techsystems reimbursed
  employees for college credit earned for prior life or work experience. From fiscal years
  2006 through 2010, United Space Alliance provided $112,079 in tuition reimbursement
  for this type of college credit. While we were unable to determine the total costs incurred
  at Alliant Techsystems, the company’s policy states that “life experiences earning credit
  and tests in lieu of courses are reimbursable, if part of an approved degree program.” As
  discussed previously, employees earning credits for life learning or experience are not
  15
       However, unlike NASA’s rules for its civil service employees, each of the three contractors we examined
       limits the amount of tuition reimbursement available to its employees to a set sum either by calendar year
       or per credit hour in their corporate policy.




REPORT NO. IG-11-023                                                                                                19
                                                                                            RESULTS



     acquiring new information, skills, or expertise, but are rather receiving college credit for
     skills they already possess. It is unclear how credits awarded for prior experience and
     without classroom attendance enhance job capabilities, improve employee performance,
     or meet the requirements of the FAR.

     We are not making any recommendations in relation to contractor academic training.
     Instead, we are providing this information to NASA to make the Agency aware of the
     issues we identified during our audit. We encourage NASA to consider this information
     during future reviews of contractor activities.




20                                                                            REPORT NO. IG-11-023
APPENDIXES




                                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2010 through August 2011 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed work at NASA Headquarters, the NASA Shared Services Center (NSSC),
  and four NASA Centers: Goddard Space Flight Center, Johnson Space Center, Kennedy
  Space Center, and Langley Research Center. 16 We interviewed NASA Chiefs, Leads,
  and Specialists within the Workforce Management and Development Division, the
  Human Resources Development Divisions, and contractor employees within the Center
  Training Offices to learn about academic training programs, processes, budgets,
  expenditures, and the controls over each. We also interviewed Directorate Training
  Coordinators and Supervisors at each of the NASA Centers to determine how the
  processes and program controls were implemented. For information related to NASA
  contractors, we interviewed NASA officials within the Office of Procurement including
  Contracting Officers and Specialists who oversee the three contracts reviewed. We also
  interviewed representatives from the Defense Contract Management Agency and the
  Defense Contract Audit Agency.

  In order to test NASA’s controls over the academic training, we obtained the universe of
  academic training data from July 2006 through September 2010 from SATERN. This
  universe contained all academic training taken by NASA employees and funded through
  employee reimbursement or direct payment to the institution using NASA appropriations.
  This universe of data is the basis for the testing, analysis, and summaries of NASA
  employee academic training presented in this report. We used a random sample to select
  97 training records for testing (see Appendix B for Sampling Methodology and
  Projection of Results). We obtained a copy of the original Authorization, Agreement &
  Certification of Training Form, SF-182, from NSSC and verified that the information on
  the SF-182 matched the information included in the universe of academic training during
  the timeframe of the audit. The SF-182 requires three levels of approval prior to being
  submitted to the NSSC: “Initial Approval” which is normally the first line supervisor, the

  16
       The headquarters location in Washington, DC operates as a Center in terms of providing academic
       training to employees’ duty stationed at that location but also serves as the Headquarters office for
       Agency-wide training. For the purposes of this audit, we reviewed the process for providing academic
       training to Headquarters employees the same as for other NASA Centers.



REPORT NO. IG-11-023                                                                                           21
                                                                                      APPENDIX A



     “Training Coordinator” approval, each Directorate normally has one person that performs
     this duty, and the “Training Office” approval, which is performed by the Center Training
     office. We interviewed individuals included in this approval process for each item tested.
     We also traced grade submissions to SATERN to verify that grades were submitted and
     properly recorded.

     To evaluate NASA’s funding of contractor academic training, we obtained a universe of
     academic training data from three NASA contractors each with a total award value over
     $1 billion. These three individual universes totaled $24 million expended on academic
     training taken by contractor employees working specifically on NASA contracts for the
     period of October 2005 through September 2010. These universes are the basis for the
     testing, analysis, and summaries of NASA contractor academic training presented in this
     report.

     We researched multiple college and university websites to determine their undergraduate
     and graduate tuition rates and the training curriculum for various degree programs. We
     also met with admissions officers at two institutions located near a NASA Center to
     obtain information on the admissions process and standards.

     We reviewed Federal laws and regulations and NASA policies related to training for civil
     service personnel and contractor employees. We also reviewed the following as
     applicable to our audit objectives:

     Federal Laws, Regulations, Policies, and Guidance

     Government Employees Training Act of 1958, as amended
     United States Code, Title 5, Part III, Subpart C, Chapter 41, “Training”
     Code of Federal Regulations, 5 C.F.R. 410, “Training”
     OPM Guide for Collection and Management of Training Information, August 2008
     OPM Fact Sheet on Continuing Service Agreements, September 4, 2009
     Federal Acquisition Regulation 31.201-3, “Determining Reasonableness”
     Federal Acquisition Regulation 31.205-44, “Training and Education Costs”

     NASA Policies and Procedures

     NPD 3410.2F, “Employee and Organizational Development,” April 9, 2009
     NSSC-HR-SDG-0019 (Revision A), “Registration-Reimbursement for External Training
       Service Delivery Guide,” May 31, 2007
     SATERN Rules and Process Guide for Administrators (Version 2.0), December 2009
     NASA Workforce Planning Desk Guide Version 2, September 2008
     KSC-UG-1104 (Revision C), “Kennedy Space Center Training & Organizational
       Development Information Guide,” September 1, 2010


22                                                                         REPORT NO. IG-11-023
APPENDIX A



  NASA Personnel Bulletin 2007-24-DM, “Passing Grades and Recordkeeping for
    Academic Courses,” May 30, 2007

  Use of Computer-Processed Data. To assess the reliability of the NASA’s academic
  training data between July 2006 through September 2010, we (1) reviewed the System for
  Administration, Training, and Educational Resources for NASA (SATERN)
  administration manual, (2) reviewed the query parameters used to extract the data
  universe of academic training from SATERN, (3) randomly selected a sample of 97
  training records to test and verify completeness and accuracy of the data, and (4)
  interviewed agency officials. We determined that the computer-based data obtained
  through the course of the audit is sufficiently reliable for the purposes of this report.


Review of Internal Controls

  We reviewed and evaluated the internal controls associated with established academic
  degree training programs, individual academic course approvals, academic training
  expenditures, and grade documentation. We found internal control deficiencies as
  discussed in this report. Our recommendations, if implemented, should correct the
  weaknesses we identified.


Prior Coverage

  During the last five years, the NASA Office of Inspector General has not issued any
  reports related to NASA’s tuition assistance; however, the U.S. Government
  Accountability Office (GAO) issued one report related to the subject of this report.
  Unrestricted reports can be accessed at http://www.gao.gov.

  GAO 11-300, “DoD Education Benefits: Increased Oversight of Tuition Assistance
  Program is Needed,” March 1, 2011. GAO reported on DoD’s oversight of schools
  receiving tuition assistance funds and the extent to which DoD coordinates with
  accrediting agencies and the U.S. Department of Education in its oversight activities. In
  accordance with DOD policy, tuition assistance covers up to $250 per credit hour, with a
  maximum of $4,500 per year. In order to receive tuition assistance funds, DOD requires
  postsecondary institution to be accredited by an agency recognized by Education.
  Tuition assistance funds are paid directly to schools and if service members do not meet
  grade point average requirements or complete their courses, service members are
  responsible for paying back the money for these courses.




REPORT NO. IG-11-023                                                                          23
                                                                                                         APPENDIX B




                                                              SAMPLING METHODOLOGY AND
                                                                  PROJECTION OF RESULTS

     For this audit, we used the attribute sample design with the method of selection being
     simple random sample. We selected 97 academic training requests from a universe of
     10,120 academic training courses attended by NASA civil service personnel from July
     2006 through September 2010. The value of the universe of academic training courses
     totaled $16,875,078. We performed two substantive tests to determine whether
     (1) grades were properly documented; and (2) the grade submitted met NASA’s grade
     requirements. Based on our analysis of documentary evidence, we determined that
     NASA had supporting grade submissions for 90 courses that met the grade requirements;
     however, seven grade submissions were missing. We validated that NASA paid for six
     of the seven courses totaling $8,554.50 without documentation that the employee met the
     grade requirement; NASA was unable to determine whether a $378.00 payment was
     made for the seventh course.

     Based on the results of our statistical analysis, we are 90 percent confident that between
     219 and 1,033 of the universe of academic training requests would fail both substantive
     tests, resulting in a projected dollar amount between $284,291 and $1,500,689 with a
     mean of $892,490. 17

                                       Projections Based on 90 Percent Confidence Level
                                                                       Projected       Projected   Projected Upper
           Timeframe        Universe        Sample       Errors      Lower Bound        Mean            Bound
          July 1, 2006-
           September
            30, 2010             10,120            97           6              219           626               1033
          July 1, 2006-
           September
            30, 2010      $16,875,078.28   $171,680.75   $8,554.50     $284,291.10   $892,490.10       $1,500,689.11




     17
          We performed the statistical sampling, analysis and projections using WinStat Version 1.0.



24                                                                                          REPORT NO. IG-11-023
APPENDIX C




                                                 SCHEDULE OF QUESTIONED COSTS


   Questioned Costs*                                             Amount                      Page
   Unallowable Costs:
    NASA-funded employee degrees outside of                        $ 1,438,196                5-8
    established programs
   Unsupported Costs:
    Projected tuition payments with no                               $ 892,490                 14
    supporting documentation
      Total Questioned Costs                                       $ 2,330,686


  * Questioned Costs are expenditures that are questioned by the OIG because of a possible violation of legal,
    regulatory or contractual requirements, are not supported by adequate documentation at the time of the
    audit, or are unauthorized or unallowable.




REPORT NO. IG-11-023                                                                                             25
                                                                                       APPENDIX D




                                             SAMPLES OF GRADE SUBMISSIONS
                                                         ACCEPTED BY NASA

     NASA accepts various types of documentation as proof that an academic course was
     successfully completed. In this example, the employee submitted an e-mail from the
     university that does not list the name of the student or other information to indicate who
     took the course and received the grade.




Source: NASA Shared Services Center.




26                                                                          REPORT NO. IG-11-023
APPENDIX D



  In this example, the employee submitted an Internet screen capture from the university
  website as evidence of receiving a passing grade. Note that the employee’s name is not
  listed on the screen capture.




  Source: NASA Shared Services Center.




REPORT NO. IG-11-023                                                                       27
                       APPENDIX E




     MANAGEMENT COMMENTS




28            REPORT NO. IG-11-023
APPENDIX E




REPORT NO. IG-11-023   29
              APPENDIX E




30   REPORT NO. IG-11-023
APPENDIX F




                                                    REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Assistant Administrator for Human Capital Management
  Assistant Administrator for Procurement
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Director Goddard Space Flight Center
  Director Johnson Space Center
  Director Kennedy Space Center
  Director Langley Research Center
  Executive Director NASA Shared Services Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-11-023                                                                 31
Major Contributors to the Report:
   Laura B. Nicolosi, Director, Mission Support Directorate
   Julia K. Eggert, Project Manager
   Scott A. Riggenbach, Lead Auditor
   Linda S. Hargrove, Information Technology Specialist
   Jason D. Hensley, Auditor
   Elizabeth M. Richardson, Attorney




REPORT NO. IG-11-023                                          33
                                                                                     AUGUST 10, 2011
                                                                        REPORT No. IG-11-023




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
